CERTIFICATE OF SERVICE
NO. TBD

Teresita A. Canuto
Petitioner(s)
v.
Ltc. Troy Alexander, Et A1
Respondent(s)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, 1 depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Teresita A. Canuto Petition for Writ of Certiorari, by mailing one (1) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel Francisco
United States Dept, of Justice
950 Pennsylvania Ave NW, Rm. 5614
Washington, DC 20530-0001
(202)514-2203
SupremeCtBriefs@USDOJ.gov
Counsel for All Federal Defendants

David M. Ross
Wilson Elser Moskowitz
1500 K Street, NW
Suite 330
Washington, DC 20005
(202) 626-7687
dav id.ross@wil sonel ser.com
Counsel for Bank ofAmerica

Craig L. Sarner
Bonner Kieman Trebach
1233 20th Street, NW
8th Floor
Washington, DC 20036
202-712-7000
csamer@bonnerkiernan .com
Counsel for Cirrus Asset Mgmt., Inc.

Chan Sekhar
July 17, 2020
SCP Tracking: Canuto-#30-Cover White

